                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM


I    TO: AIGI     File Number: IS9010001

11 Subject: Closeout Memo                                                    ~
                                                                                 Date: 02 March 2002

                                                                                         Page 1 of 1


11       There was no closeout written at the time this case was closed. The following information was

11       extracted from the file in conformance with standard closeout documents.

         Our office was informed that the subject' was alleged to have committed embezzlement, theft or
         diversion of grant funds. The subject resigned to avoid formal dismissal and NSF's Division of
         Financial ~ a n a ~ e k ewill
                                  n t arrange to collect the debt.

         Accordingly this case is closed.
